<html>
<title> - USHERING IN CHANGE: A NEW ERA FOR U.S. REGIONAL POLICY IN THE PACIFIC</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 USHERING IN CHANGE: A NEW ERA FOR U.S. REGIONAL POLICY IN THE PACIFIC

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2009

                               __________

                           Serial No. 111-44

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
51-657                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
               Lisa Williams, Subcommittee Staff Director
           Daniel Bob, Subcommittee Professional Staff Member
             Nien Su, Republican Professional Staff Member
                       Vili Lei, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Ms. Alcy Frelick, Director, Office of Australia, New Zealand and 
  Pacific Island Affairs, Bureau of East Asian and Pacific 
  Affairs, U.S. Department of State..............................    14

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment:
  Prepared statement.............................................     4
  Letter to the Honorable Voreqe Bainimarama, Prime Minister, The 
    Republic of Fiji, dated July 17, 2009........................    32
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................     9
Ms. Alcy Frelick:
  Statement for the record by Ms. Margot B. Ellis, Acting 
    Assistant Administrator for Asia, U.S. Agency for 
    International Development....................................    15
  Prepared statement.............................................    20

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
Her Excellency Ms. Marlene Moses, Chair of the Pacific Small 
  Island Developing States (SIDS) and Permanent Representative of 
  the Republic of Nauru to the United Nations: Written statement.    42
Ms. Alcy Frelick: Updated prepared statement submitted after the 
  hearing........................................................    49


 USHERING IN CHANGE: A NEW ERA FOR U.S. REGIONAL POLICY IN THE PACIFIC

                              ----------                              


                        WEDNESDAY, JULY 29, 2009

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:23 p.m. in 
room 2172, Rayburn House Office Building, the Honorable Eni F. 
H. Faleomavaega, (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The subcommittee hearing will come to 
order. This is a hearing on the House Foreign Affairs 
Subcommittee on Asia, the Pacific and the Global Environment.
    First of all, I want to offer my sincere apologies for 
being a little late this afternoon. We are delighted to have a 
briefing from our distinguished members of the diplomatic corps 
who will be testifying at our hearing this afternoon. I first 
want to say that this is a follow-up to a hearing we held last 
year regarding the subcommittee's concerns over how our 
country's foreign policies relate to the interests and needs of 
the island nations that make up the Pacific region.
    I would like at this time to proceed by reading my opening 
statement, and without objection, my distinguished members and 
ranking member, as well as our witnesses this afternoon, all 
your statements will be made part of the record, and any other 
related materials that you wish to submit will also be made 
part of the record.
    The topic for discussion in our hearing this afternoon is 
``Ushering in Change: A New Era for the U.S. Regional Policy in 
the Pacific Region.''
    We need a coherent regional policy toward the Pacific. Our 
over-reliance on Australia and New Zealand is proving 
increasingly counterproductive to our interests, especially as 
resentment toward Canberra and Wellington has grown over the 
years. Moreover, given that China and Iran are actively engaged 
in the region, the United States can no longer afford to 
abdicate its responsibilities, nor should we, since the region 
encompasses sea lanes at the heart of transpacific trade and 
exclusive economic zones containing vast resources. Most 
Pacific nations also have democratically-elected governments, 
they cast 12 votes in the U.N. General Assembly and they are 
among our strongest allies.
    In my personal view, American policy toward the Pacific 
region must begin with more proactive, direct and sustained 
engagement of the countries in the region. We need to make 
clear that the United States considers the Pacific Island 
nations important enough that we will chart our own course 
rather than out-source our policymaking to Australia and New 
Zealand.
    Toward that end, the administration should increase USAID's 
presence in the region. In 1994, USAID closed its facilities in 
the Pacific--citing budget constraints and shifting strategic 
priorities. However, at the time, the United States was only 
spending $12 million annually on the Pacific Island countries. 
Given an anticipated increase in U.S. resources for the conduct 
of our foreign policy, I am hopeful that funds will be 
committed to re-establish a USAID presence among the Pacific 
Island nations.
    A relatively small amount of funds would go a long way 
toward signaling American intentions to re-engage the region. 
Such a commitment would also allow the implementation of 
country-level and regional projects that meet U.S. 
developmental goals of fostering sustainable economic growth, 
strengthening democratic institutions and addressing the 
challenges of climate change.
    In terms of providing other resources to the region, I 
believe we should increase the presence of Peace Corps 
volunteers, offer more Fulbright Scholarships and increase 
funding for the U.S. South Pacific Scholarship Program 
currently conducted under the auspices of the East-West Center. 
In addition, the administration should actively engage the 
International Monetary Fund, the World Bank and the Asian 
Development Bank to enhance their programs, which address the 
serious needs of the Pacific region.
    Beyond committing greater resources, the United States 
should demonstrate its interest in the Pacific Island nations 
through the direct involvement of senior-level officials on 
important occasions. I would encourage an early visit to the 
Pacific Island nations by the next Assistant Secretary for East 
Asian and Pacific Affairs. I would also hope that in the next 
Pacific Island Conference of Leaders summit (PICL), which will 
include the United States, that perhaps Washington will commit 
to high-level participation by, and recognition from, the Obama 
administration.
    The PICL is composed of heads of state and governments from 
the region, and meets only once every 3 years. The last meeting 
of the Pacific leaders was largely ignored by the Bush 
administration. A 10-minute speech by Secretary of State Rice 
was the extent of that administration's senior-level 
involvement.
    Moreover, the State Department should consider increasing 
the number of participants in its international visitors 
leadership program and other exchanges that permit leaders of 
the Pacific Island nations to interact with their American 
counterparts. In particular, I would urge a focus on exchanges 
demonstrating the depth of the administration's commitment to 
dealing with climate change.
    The Pacific Island nations are among those most vulnerable 
to sea level rise, coral depletion and the severe weather 
patterns that are occurring as a result of climate change. 
Indeed, as an example, the island state of Tuvalu, with only 
nine atolls a few feet above sea level may soon disappear, 
necessitating the relocation of its entire population. The same 
fate awaits many other low-lying atolls, not only in the 
Pacific region, but other regions of the world.
    Complementing environmental efforts aimed at addressing the 
problems associated with climate change, I believe that the 
administration should increase support for the study of marine 
biology and other marine sciences in partnership with the 
Pacific Island nations. Further, the administration should take 
steps to submit the Pacific Regional Environment Programme and 
associated protocols for ratification.
    I would also like to work with the administration to 
promote trade and investment in the region. The United States 
provided ample assistance to post-war Germany and Japan, and we 
have invested billions of dollars to rebuild Iraq. Yet the 
United States seems unable to clean up the nuclear mess that we 
created in the Marshall Islands or to make a concerted effort 
at working with Pacific Island and American business interests 
to diversify the region's economy. Under the Obama 
administration, I hope this will change.
    Just as there was an initiative known as the Caribbean 
Basin Initiative, I hope that the principles and the policies 
outlined by that trade agreement with our Caribbean countries 
should also be looked at very seriously for the Pacific Island 
nations as a model.
    Finally, I am hopeful that the Obama administration will 
reassess the U.S. position on signing the South Pacific Nuclear 
Weapons Free Zone Treaty, known as the Treaty of Rarotonga, an 
issue of longstanding importance to the leaders and people of 
the region.
    Now I would like to recognize the ranking member of our 
subcommittee, my good friend, the gentleman from Illinois, Mr. 
Manzullo, for his opening statement.
    [The prepared statement of Mr. Faleomavaega 
follows:]<greek-l>Faleomavaega statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Manzullo. Thank you, Chairman. I appreciate your 
calling this hearing regarding America's policy toward the 
Pacific Island nations. This is a part of the world that the 
United States has overlooked more often than not, much to our 
own detriment, especially since the People's Republic of China 
is actively investing lots of resources into cultivating strong 
relations there.
    Aside from grants provided under the Compacts of Free 
Association and the Millennium Challenge Account funding for 
Vanuatu, America's direct assistance to the Pacific is low. 
U.S. policy in this part of the world must refocus to the 
challenges of the twenty-first century and not be a relic of 
the past.
    I continue to be concerned about the situation in Fiji, 
particularly after the regime abrogated the nation's 
Constitution in April of this year. This action, taken in 
response to a ruling against the military regime's ouster of a 
democratically-elected government by the nation's Court of 
Appeals is extremely worrisome, and it illustrates the dire 
consequences of a military rule.
    Not surprisingly, the regime arrested a group of Methodist 
Church leaders, and one of Fiji's most prominent chiefs only 2 
weeks ago for planning to hold a church annual conference. 
Thus, I urge the administration to do more to pressure the 
regime to hold free and fair elections as soon as possible.
    Maintaining a strong relationship with Australia must 
remain a key priority for the United States. Australia is one 
of America's closest friends and knows the Pacific region 
obviously better than we do. A strong partnership with 
Australia is vital to our national security. I supported the 
Free Trade Agreement with Australia in the 108th Congress, and 
I am happy that this partnership has turned out to be a 
significant benefit for both countries.
    United States exports to Australia have soared since the 
agreement came into force, rising from $15.5 billion in 2005 to 
$22.2 billion in 2008. Exports from Illinois to Australia have 
also risen, going from $36.1 million to $53.7 million. In fact, 
the number one exported good from Illinois to Australia is a 
large off-highway dump truck. Amazingly we have a trade surplus 
with Australia.
    My question for our distinguished witness is simple. With 
regard to China's increased presence in the Pacific, how has 
Australia's relationship with China changed, particularly in 
light of recent trade tensions? Have the collapse of global 
commodity prices, and the arrest of Rio Tinto mining employees 
by China ruin the honeymoon between Beijing and Canberra?
    New Zealand is another bright spot for America's relations 
in the Pacific, particularly in the past few years. I 
understand the New Zealand Government has expressed a strong 
interest in negotiating some form of trade agreement between 
our two countries. If this is correct, I would like to hear the 
administration's position regarding the proposal. I am also 
curious as to the status of the Transpacific Strategic Economic 
Partnership Agreement.
    On an issue related to trade, it is my understanding that 
Air New Zealand, which is owned by the Government of New 
Zealand, recently issued a request for a proposal to replace 
its narrow-body aircraft fleet. Given the importance of the 
manufacturing sector to create and sustain good paying American 
jobs, I trust the State and Commerce Departments are doing all 
they can to abdicate on behalf of American industry.
    Mr. Chairman, thank you for calling this hearing, and I 
look forward to your testimony.
    Mr. Faleomavaega. I thank the gentleman for his opening 
statement, and now I would like to turn the time over to the 
distinguished member of our subcommittee, the former Ambassador 
to the Federated State of Micronesia, the gentlelady from 
California, Dr. Watson, for her opening statement.
    Ms. Watson. Thank you so much, Mr. Chairman, and I think it 
is so important that you are holding this hearing on a new era 
for U.S. regional policy in the Pacific, and I know the last 
time we went on a CODEL we were with you and I think we need to 
take more down into this area of the Pacific so more of the 
decision makers and the lawmakers can understand the need in a 
changing era in this particular area of the world.
    The United States for many years enjoyed a lasting and 
significant partnership with the people and government of the 
Pacific. As a former Ambassador to Micronesia, I recognize the 
importance of this friendship, but I am also aware of the many 
outstanding issues in the region, including the quadulan lease 
extension, the situation in Fiji, and I was there, Mr. 
Chairman. You might remember me telling you, and I could feel 
in the atmosphere that something was going on because the 
locals were complaining about the takeover of government by 
people from other countries, and as soon as I got back to 
Micronesia there was a coup, and we have been trying to assist 
that ever since then, that there will be a democratic process 
in electing a new. But it was very telling hearing from the 
native people themselves.
    We also know that there is an increasing poverty rate and 
it is the effects of global economic downturn and the negative 
climate change that will continue to hinder its fragile 
ecosystems which in turn affect both the global community and 
the local populations, and it is my hope that under our 
President Obama we will commit to strengthen our relationship 
and renew U.S. development and aid commitments to our friends 
in the Pacific.
    Mr. Chairman, I raised an issue yesterday as we were 
talking about health care, and you might have heard the 
representative from Hawaii say that, you know, we need to be 
sure that Medicare is reimbursed, the services be reimbursed. 
Well, I do know in Micronesia we didn't have the health care 
infrastructure down in our islands, so our people would go up 
to Guam and Hawaii, and there was a broad debt that was placed 
on these two areas because we were not paying as we were going.
    So I do hope, Mr. Chairman, in conclusion, that we as a 
policymaking body would look at our territories and be sure 
that they are funded to the extent they can pay their own way 
for the new health care system that we hopefully set up.
    Please excuse me as I go to an emergency meeting just 
called, and I will look forward to hearing from witnesses. My 
staff is here, and they will inform me, and I am sure they will 
bring us most important information that we need to hear. Thank 
you so much, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentlelady for her statement. 
Without objection, her statement will be made part of the 
record as well as other members who wish to make statements 
part of the record.
    [The prepared statement of Ms. Watson 
follows:]<greek-l> deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. I do want to thank the gentleman from 
Illinois for his comments concerning the situation in Fiji. For 
the record, I would like to share with my colleagues that I 
returned from Fiji about 1\1/2\ weeks ago, after consultations 
with the interim prime minister of Fiji. I want to share a 
little sense of experience and history with my colleagues to 
the effect that Fiji has had a colonial history in the past, 
and many of us here in America have no idea of the concept of 
what happened in this important island group in the Pacific.
    When you have had to grapple with some very serious ethnic 
issues among the local inhabitants, when you have had four 
military coups and one civilian coup and three Constitutions, 
and have had to deal with all of this in a 20-year period, I 
will submit to the gentlelady and my colleague from Illinois 
that the situation in Fiji is not that simple. I have been very 
vocal and very critical of the conduct and actions taken by the 
leaders of Australia and New Zealand, and I say this for the 
record, their heavy handedness and being so critical, and not 
really having a sense of appreciation of what the leaders of 
the people of Fiji have had to work with in terms of the 
current situation that they are now confronted with.
    So I just want to note for the record, as I did not have a 
chance to share with my colleagues, we had Ambassador Rice, 
U.S. representative----
    Ms. Watson. Mr. Chairman, will you yield for a moment?
    Mr. Faleomavaega. I would be glad to yield to the 
gentlelady.
    Ms. Watson. When I mentioned Fiji, I got on a bus with 
people who were visiting from Europe. No one knew who I was, 
and no one else spoke English. So I sat up in the front and I 
was right next to one of the Fijians, and I said, are you sure 
you are not from Crenshaw Boulevard in my district? That is the 
main thoroughfare, and he looked like most of the people in 
that neighborhood, and spoke English. And I finally figured out 
why he was constantly pointing out and showing the names of the 
businesses. When we got into the downtown area of the main city 
there was not a Fijian name up on those signs, professionals 
and all.
    And what he was really crying out for, and since these had 
been colonial territories in the past, that it was now time 
that the native population be full participants.
    We have gone through that in this country too, and I had a 
chance to get back to my post and consider my experiences, and 
then read about the coup, and hearing your remarks just 
reminded me that when we go into these countries and we 
completely isolate, push back the native people, there is a 
time that they say we are not going to take it anymore. And so 
we don't really train them and educate them to become leaders 
in a democratic sense.
    You know, we go in there and we reap and we are gone, and 
so I think there is a big opening under this new administration 
to go back in, reevaluate our support, and rather than going 
into the Middle East and training people there we ought to 
remember people in the Pacific, in the various nations of 
Africa, and the areas that have really pretty much been 
neglected by the western world.
    So I wanted to say that in relationship to what you are 
saying, and thank you so much. I think it is important that we 
have a series of dialogues.
    Mr. Faleomavaega. I thank the gentlelady for her comments. 
In fact, when Secretary Clinton appeared before the full 
committee, I raised the subject of Fiji, and I am very grateful 
that Secretary Clinton has given her personal attention and 
willingness and commitment to work with our subcommittee 
members and to see what we can do to give assistance to the 
current crisis in Fiji.
    I might also note to the gentlelady that I wanted to 
address the issue of Fiji with Secretary Rice, our U.S. 
Ambassador to the United Nations, and the latest development 
from what I hear that Fiji is still a full-fledged member of 
the United Nations, and I am informed that New Zealand and 
Australia now are trying every way possible to cut off any more 
opportunities for the military forces of Fiji that currently 
participate in peacekeeping operations since 1978. And I will 
also note for the record that the assistance the military 
forces of Fiji have given to the United Nations and to our 
world community is second to none in terms of how much our 
country has appreciated what the Fijian military has done to be 
part of our peacekeeping operations in the United Nations.
    But what really is disturbing to me is why Australia and 
New Zealand are singling out Fiji and to disallow Fijian 
soldiers to continue their efforts to participate in the 
peacekeeping operation.
    Ms. Watson. Would you yield for----
    Mr. Faleomavaega. I will be glad to yield to the 
gentlelady.
    Ms. Watson. As a result of this hearing, and maybe 
subsequent hearings, could we from this subcommittee send a 
letter to the Secretary of State and in that letter stating the 
position you just now did, and so we can bring some attention 
to the fact that two of our partners down in that area of the 
world would like to decrease the number of forces coming from 
Fiji or eliminate them altogether, and at a time when we need 
friends throughout the world to partner with us as we go into 
territories and we are involved in conflicts, and also we're 
involved in a tremendous crisis, that she ought to take a look?
    And as you know, former President Clinton is an envoy to 
Haiti, and so she might want to send down an envoy to this area 
to look at the Fiji situation and other areas around.
    Mr. Faleomavaega. I would say to my good friend I will 
personally draft a letter and we will have the members of our 
subcommittee sign on. We are going to send it to President 
Obama as well as to Secretary Clinton, and I think that we 
should have this kind of communication with the leaders of 
Fiji.
    Yes, they are having problems, but I don't think it is fair 
that we should hammer them and continue to be so cynical and 
critical of the difficult situation that the leaders of Fiji 
are trying to resolve, not only among themselves but especially 
among their people.
    So I gladly thank my good friend. I definitely will be 
working on that in the coming weeks, and I thank the 
gentlelady.
    By the way, Dr. Watson, Fiji has produced some of the best 
rugby players in the world. This is a little ongoing contest 
between the Samoans, the Maoris, the Fijians, and the Tongans 
as to who are the best rugby players in the world. You will 
find them in the Pacific.
    Ms. Watson. I can tell you one thing, that every small 
village on the Island of Fiji that has sand on top of the 
earth, you know, a little level of sand, they have the 
Continent of Africa, the Island of Fiji, and they use the 
shells to show the trek across the ocean to Fiji.
    Mr. Faleomavaega. Thank you, Dr. Watson. I deeply 
appreciate your comments, and I want to offer my apologies 
again to our distinguished guests here before the subcommittee.
    I know that there was an agreement that the distinguished 
Ambassador from the Republic of Nauru would be the spokesman on 
behalf of our Pacific Ambassadors, and I would like to 
personally welcome her, Marlene Moses. I have also invited our 
other distinguished Ambassadors from the Marshall Islands, from 
the Federated States of Micronesia, and from the Republic of 
Fiji to join us.
    Ambassador Moses started her career as a Foreign Service 
Officer. Since 1983, she has served as consul general in New 
Zealand, Japan and Australia; she became permanent secretary of 
internal affairs for the Republic of Nauru; and she served as 
Ambassador not only to the United Nations, but also to the 
United States, the Republic of Cuba and also Venezuela. That is 
quite a hefty responsibility there, Marlene.
    She received her collegiate education from Canberra College 
and advanced education at Monash University in Melbourne, 
Australia.
    Madam Ambassador, I will have you take the lead on your 
opening statement, and without objection I am also going to 
invite your colleagues and your distinguished Ambassadors if 
they have any written materials or statements that they would 
like to submit to be made part of the record. It will be done, 
and then maybe we can just dialogue based on your statement, 
Madam Ambassador, and we will then proceed from there.
    [Discussion off the record.]<greek-l>
    [The prepared statement of H.E. Marlene Moses 
follows:]Note: Moved to appendix deg.
    Mr. Faleomavaega. Our next witness this afternoon is Ms. 
Alcy Frelick. She is a career service officer, and is currently 
serving as Director of the Office of Australia, New Zealand and 
Pacific Island Affairs within the Bureau of East Asian and 
Pacific Affairs in the U.S. Department of State.
    Ms. Frelick has served in various posts, not only in the 
Western Hemisphere, including Mexico, the Caribbean and Canada, 
she also had overseas assignments in East Asia, and as consul 
general in Madrid, Spain. Also, Ms. Frelick was the principal 
officer in our Embassy in Aukland, New Zealand, as well as 
having portfolios covering the Cook Islands, Samoa and other 
small island nations.
    She also served as the chief visa immigration officer in 
Seoul, Korea, and in consulates in Kathmandu, Nepal, and as 
vice consul in Kuala Lumpur, Malaysia.
    She was a director of the UCLS project in Beijing, China, 
and managed an education project for Save the Children in 
Vietnamese refugee camps and in Indonesia, and also served in 
the Peace Corps in Kabul, Afghanistan, years ago.
    She is originally from the State of Delaware, and is 
currently residing in Northern Virginia.
    I do want to apologize sincerely for the delay in our 
hearing this afternoon, Ms. Frelick, but I do want to welcome 
you and thank you for taking the time to come and testify 
before the subcommittee.
    I will now give you time for your statement.

 STATEMENT OF MS. ALCY FRELICK, DIRECTOR, OFFICE OF AUSTRALIA, 
 NEW ZEALAND AND PACIFIC ISLAND AFFAIRS, BUREAU OF EAST ASIAN 
         AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Frelick. Thank you very much, Chairman Faleomavaega, 
distinguished members of the subcommittee, thank you for 
inviting me to appear today to testify regarding ushering in 
change, a new era for U.S. regional policy in the Pacific. I 
welcome the opportunity to address our policy toward this 
important region.
    The United States values its longstanding and close 
relationships with the countries and peoples of the Pacific. 
Indeed, we are ourselves a Pacific nation with a lengthy 
Pacific coast, the State of Hawaii, and stretching to the 
Northern Marianas and American Samoa. Nothing could better 
underscore this fact than the election of Hawaiian-born Barack 
Obama, as the 44th President of the United States.
    The United States engages with the Pacific Island countries 
both bilaterally and multilaterally to address issues of 
concern to the United States, the region and the world. Our 
multifaceted engagement with the Pacific covers the gamut from 
addressing climate change to maintaining a robust missile 
defense infrastructure. Most importantly, we seek to work with 
the governments and the people of the Pacific to foster stable, 
democratic, and prosperous countries.
    I have submitted written testimony which addresses some of 
the specific questions that were raised in your invitation to 
testify today.
    Mr. Faleomavaega. Without objection your statement will be 
made part of the record.
    Ms. Frelick. Thank you very much.
    Mr. Faleomavaega. And any other submissions that you wish 
to make will be made part of the record.
    Ms. Frelick. Thank you very much, Mr. Chairman.
    The first issue I would like to address this afternoon is 
U.S. foreign assistance to the Pacific, including the Compacts 
of Free Association. I would like to note also, Mr. Chairman, 
that USAID has provided written testimony for the record and 
which should provide more information specific to the account 
of USAID involvement in the Pacific region.
    Mr. Faleomavaega. Without objection it will be made part of 
the record.
    [The information referred to follows:]<greek-l>USAID 
statement FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Frelick. Certainly major components of our regional 
assistance programs are linked to the Compacts of Free 
Association with the Federated States of Micronesia, Republic 
of the Marshall Islands, and the Republic of Palau. Under the 
terms of the contacts, all three countries receive U.S. support 
in the form of direct assistance and through access to Federal 
programs, grants and services. Administered primarily by the 
Department of Interior, this totals over $200 million annually.
    The Millennium Challenge Corporation has a 5-year, $66 
million compact with Vanuatu, which focuses on transportation 
infrastructure. USAID's regional development mission for Asia, 
which is based in Bangkok, manages several programs in the 
Pacific, like the $2.5 million program for dealing with the 
scourge of HIV/AIDS and in tropic forest conservation program 
in Papua New Guinea. Both Papua New Guinea and the Solomon 
Islands are included in the Coral Triangle Initiative.
    USAID's Office of Foreign Disaster Assistance, or OFDA, has 
provided disaster assistance to Fiji, Papua New Guinea, and the 
Solomon Islands in the past year. Last November OFDA assigned a 
representative to our Embassy in Majuro with responsibility for 
immediate disaster response for Micronesia and the Marshalls.
    The U.S. Navy's specific partnership program has been 
providing medical, dental, veterinary and engineering 
assistance in the Asia Pacific region for several years now. In 
2008, the Pacific partnership provided medical treatment to 
over 20,000 people in Papua New Guinea and 17,000 people in 
Micronesia. They are currently in the midst of a 3-month 
mission to Samoa, Tonga, and the Solomon Islands, Kiribati and 
the Marshall Islands. The Navy and the Pacific fleet are 
committing more than $20 million this year to this mission.
    In addition to these bilateral programs the United States 
is a member and supporter of some of the region's most 
important multilateral programs. Through the Secretariat of the 
Pacific Community, we contributed assistance to 22 Pacific 
Island countries and territories. Agencies like NOAA provides 
support through the <greek-l>South  deg.Pacific Regional 
Environmental Programme (SPREP), which you mentioned earlier, 
and 14 Pacific Island countries receive a combined $18 million 
annually through the South Pacific Tuna Treaty.
    We will be participating in the Pacific Island forum/post-
forum dialogue meetings next week in Cairns, Australia. This 
year a major theme for the dialogue partners is donor 
coordination. Assistant Secretary of State Kurt Campbell will 
lead a robust interagency delegation to meet and consult with 
Pacific leaders. The strong U.S. presence in Cairns is an 
indication of the Obama administration's commitment to the 
region.
    Before I leave the topic, I would like to note that our 
coordination with Pacific Island countries on global issues is 
a dynamic and interactive one. Citizens of the freely 
associated states serve honorably in the U.S. military 
services. Tongan soldiers fought alongside U.S. troops in Iraq, 
and Tonga is moving forward in a peaceful transition on its 
path toward a constitutional democracy. In June, the U.N. 
General Assembly unanimously adopted a resolution sponsored by 
Nauru and other Pacific small island developing states entitled 
``Climate Change and Its Possible Security Implications.'' This 
resolution underscored the dire nature of the threats that 
climate change posed to their nations and was supported by the 
United States as Ambassador Moses mentioned.
    Tuvalu has just announced its commitment to become energy 
independent by 2020. Micronesia was selected for an award in 
April 2009 that recognized that they were accelerating the 
phase-out of hydrocarbon, fluorocarbons beyond the requirements 
of the Montreal Protocol, and I would like especially to 
express our appreciation to President Toribiong and the people 
and Government of Palau for their humanitarian offer to 
resettle detainees from Guantanamo Bay.
    Ambassador Susan Rice recognized the terrific cooperation 
we enjoy with Pacific Island countries in the United Nations by 
hosting the Pacific Island Permanent Representatives for her 
first representational event at the United Nations earlier this 
year.
    Pacific Island countries are stalwart friends and we share 
a similar world view and values. The United States is firmly 
committed to the advancement of human rights and democracy 
worldwide. In this regard, we want to thank you, particularly 
Chairman Faleomavaega, for your leadership of the U.S. 
delegation during election observations in Micronesia this past 
March. We support cultural and academic exchanges, recognize 
women of courage, and provide annual reports on human rights 
and trafficking in persons to Congress.
    Certainly, as mentioned earlier, the most troubling 
political issue in the Pacific today is the situation in Fiji. 
The military cop of December 2006 and subsequent events around 
Easter of this year when the interim government abrogated the 
Constitution have been troubling. Fiji's coup leaders recently 
released a roadmap to democracy that did not take credible 
steps to restore democratic rule, other than to promise to 
begin working 3 years from now on a new Constitution leading to 
elections in 2014.
    Public emergency regulations remain in place. The press 
remains heavily censored and the right of assembly is severely 
restricted. Just 2 weeks ago the leaders of the Methodist 
Church and one of Fiji's three paramount traditional chiefs 
were arrested for planning to hold the church's annual 
conference despite government ban.
    The United States responded to the Fiji coup by imposing 
sanctions in accordance with Section 508 of the Foreign 
Operations Appropriations Act. Our sanctions are targeted 
against the military regime while we continue to assist the 
people of Fiji through programs geared toward strengthening 
civil society, humanitarian assistance, and disaster relief. 
Meanwhile, we also maintain full diplomatic relations with 
Fiji.
    We are closely following the statements of Pacific Island 
leaders and the actions of the Pacific Island Forum which 
suspended Fiji in May. We believe that the return of democracy 
to Fiji will necessitate the early and sustained restoration of 
such basic human rights as freedom of speech and assembly.
    I would like to conclude my remarks today by looking at the 
activities of other important players in the region. First and 
foremost is our alliance with Australia, a country with which 
we share interests, values, and commitments not only in the 
Pacific but throughout the world. The United States recognizes 
the very real leadership role Australia plays as the largest 
country in the South Pacific region.
    New Zealand is our other close regional partner. We 
collaborate intensively with New Zealand on a broad range of 
issues from democracy promotion to renewable energy. We have 
also been working with Japan, which is playing an increasingly 
welcome role in the Pacific; the European Union, and individual 
European countries that are also engaged in projects in the 
Pacific, and we welcome opportunities to expand our 
coordination with them.
    I am pleased to note that since the election of President 
Ma in Taiwan, China and Taiwan appear to have curtailed their 
competition for diplomatic recognition. That what we call 
checkbook diplomacy undermined good governance and distorted 
political processes. We encourage both parties to follow 
international norms of transparency when providing foreign 
assistance in the region.
    In conclusion, let me reaffirm that the Pacific Region is 
important to the United States. We seek to identify new and 
better opportunities to increase our engagement with the 
governments and peoples of the Pacific. We benefit from and 
appreciate the active interest and support from Congress, and 
look forward to working together to craft effective policies 
and programs to meet the mutual needs of the United States and 
the countries of the Pacific.
    Thank you very much for the opportunity to testify today. I 
would be happy to answer any questions you might have.
    [The prepared statement of Ms. Frelick 
follows:]<greek-l>Alcy Frelick deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you for your very thoughtful and 
concise statement concerning the situation in the Pacific 
region.
    You had indicated earlier in your testimony that the 44th 
President of the United States was born in the State of Hawaii. 
I don't know if you are aware of this, but at the height of the 
Presidential elections last year there was a national blog or 
blogger, I am not very good at computers, going around saying 
that I was appointed as a special agent of Barack Obama for 
which I went to Indonesia, went to Jakarta, attended even the 
school that he went to when he was a young man, and that my 
mission as a special agent of Barack Obama was to destroy any 
records giving any reference to the idea that he was born in 
Indonesia and not in Hawaii.
    What surprises me is that this nonsense is still going on 
in the blogging community. But it seems lately even in the most 
current news stories and television that there seems to be 
rejection among some of our leaders here in Washington about 
this rumor that is going on that Barack Obama is not a U.S. 
citizen.
    I would like to state for the record quite clearly that my 
colleague from the State of Hawaii, Neil Abercrombie, not only 
knew Barack Obama's parents when they were teaching at the 
University of Hawaii, but specifically said that Barack Obama 
was born in Kapi'olani Hospital in Honolulu, Hawaii. I just 
want to make sure that that record is straight, once and for 
all.
    I was curious, Ms. Frelick, you mentioned the foreign 
assistance that we have given to the island nations, I guess 
more specifically, Micronesia, to the tune of about $200 
million. And I am a little puzzled if we consider this foreign 
assistance, or is it part of our treaty obligations that we 
have toward the Marshall Islands, Palau, and the Federal States 
of Micronesia?
    Maybe I am dealing with semantics here, but I was just 
curious. How do we label this program as part of treaty 
obligations that we have had in exchange for establishing this 
very unique political relationship with these three sovereign 
nations in the Pacific in exchange for their friendship. And I 
suppose, to the extent that if we have ever a need to show our 
national strategic and security interests in this region of the 
Pacific, that that is the reason why we are paying them $200 
million or whatever it is. I suppose, as advocated by the 
Department of Defense, and why we consider these islands as 
very strategic and very important to our own national interest. 
Would you care to comment on that?
    Ms. Frelick. Thank you, Mr. Chairman, for that question. I 
have to confess that I am not a lawyer so the semantical 
differences between treaty obligations, foreign assistance, and 
how exactly all that fits with the compact would be something 
that I would need to refer back and have legal advice before I 
ventured into that particular quagmire.
    But I would like to address it because I think that when we 
are looking at our relationships with the Republic of Palau, 
the Federated States of Micronesia, and the Republic of the 
Marshall Islands is those are certainly unique relationships. 
Perhaps the pivotal moment of the relationships was when they 
became U.N. Trust Territories under U.S. authority after World 
War II, and then as the compacts were concluded and we moved 
forward under the compact relationships, it a unique 
relationship.
    The domestic agency, the Department of Interior has the 
primary responsibility for implementing the Compacts of Free 
Association, and yet they are independent countries. So I would 
have to say that I think at least on an operational basis it is 
somewhere--it sort of bridges both of those areas as both 
foreign assistance and comes in as treaty obligations for us.
    I think it is a relationship that we both benefit from, and 
that the richness and the strength of our relationships is not 
totally something that can be put down to dollars and cents, 
however.
    Mr. Faleomavaega. I might also add, Ms. Frelick, and I do 
want to say this for the record in fairness to our allies 
Australia and New Zealand, that I do want to commend them for 
all the efforts they have made in providing assistance to these 
island nations because, in my opinion, we are not doing enough 
as far as the United States alone. So I do want to commend 
Australia and New Zealand for their efforts in helping our 
island nations simply because we are totally absent. We are not 
even there. We don't even show presence. If we do, certainly it 
is not what I would expect would be something that would show 
our sense of credibility in our presence, or lack of presence 
there in the Pacific.
    I want to note also for the record that the U.S. Navy, 
recently, in the Pacific partnership program that you stated 
earlier, that some 460 doctors that went on this hospital ship, 
and went and visited all of these island countries, and 
provided assistance to thousands of Pacific Islanders in the 
various communities. And I want to commend the Navy. I think 
that is $120 million funding and usage that is most worthwhile 
and certainly makes me proud to see that that is money in good 
use to help our fellow human beings in this part of the world.
    On the question of Palau, you know there is a lot of hype 
in the media right now, and I must say that I was very moved by 
the statements made by the President of Palau as to the reasons 
why he felt that his government had to step up to the plate in 
wanting to take in these 13 prisoners who were taken, for some 
odd reason, to Guantanamo. His doing so was not to kiss up to 
the United States, but it was as part of a Pacific culture 
again. If people are in need, you help. Where are these 13 
Uighurs going to be living was the question? We refused refuge 
for these 13 Uighurs who had been determined as non-terrorists. 
I am a little disappointed personally why we cannot in our 
capacity take in 13 human beings among the 300 million living 
here in the United States. But I want to commend Palau, a 
small, little island nation that feels very strongly that it is 
part of the culture and say, ``We don't want to leave these 
people out in the street stranded.'' They should be sheltered, 
and I do commend the President of Palau for the initiative that 
he has taken.
    Now, unfortunately, the Government of China has a very 
different attitude and different reasons for thinking that 
these people are terrorists. And the likelihood is that if 
these people ever were to return to China they will either end 
up dead or in prison. So we are caught in the middle in 
somewhat of a predicament in terms of how we--I think the term 
was ``rendition''--gathered up all these suspected terrorists 
from all over the world, and brought them to Guantanamo, and 
now to realize that we have made some God-awful mistakes in 
bringing some of these people who are totally innocent. And now 
we are trying to solve the problem, unfortunately, to the 
extent that we have to find other countries willing to take 
these members of the Uighur people who live in the most extreme 
western region of China which borders Kazakhstan and other 
countries right there in Central Asia.
    So I do want to ask, where are we in terms of the status of 
the 13 Uighurs? Are they going to Palau? Are there problems 
that we are having with that transition?
    I believe there is an amendment pending in the 
appropriations bill that was introduced by my colleague 
Congressman Murtha to prohibit the transfer of any of the 
Uighurs to any U.S. territory or State. I don't know how far 
this is going to go, but I just wanted to let you know that 
this is coming down the pipeline and I was curious about the 
State Department's position on this.
    Ms. Frelick. Well, I think actually, Mr. Chairman, you 
spoke very eloquently of the Pacific way earlier in your 
statement when you spoke about a brother reaching out a hand to 
another brother, and I think that your commendation of Palau is 
something that I could not have said better myself; that 
certainly the President and the people of Palau have really 
reached out their hands to these individuals.
    I know that Special Envoy Fried has been working very 
closely with the Government of Palau to make the arrangements 
for the transfer of the Uighurs and working with Uighur 
counsel. There are details to be worked out, as you can 
imagine, and those are in the process of being worked out now.
    The Government of Palau said that they do not want to have 
any Uighurs come who don't willingly come, and so we need to 
make sure that the Uighurs who are resettled in Palau 
understand where Palau is and are----
    Mr. Faleomavaega. Teach them how to swim, too.
    Ms. Frelick. Well, that is right. Part of the resettlement 
program.
    Mr. Faleomavaega. We had discussed earlier, as you know, 
with my colleague from Illinois, the situation of Fiji. As I 
had mentioned, I will, without objection, submit for the record 
a copy of the letter that I submitted personally to interim 
Prime Minister Bainimarama. That was about 1\1/2\ weeks ago, 
and I submitted the copy of the same letter to our Ambassador 
to Fiji.
    [The information referred to follows:]<greek-l>Letter 
FTR deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Contained in that letter were some 
suggestions I offered on the roadmap, the proposal that Prime 
Minister Bainimarama gave to the people of Fiji, and to the 
region for that matter. Of course, there is always 
disagreement, and perhaps somewhere along the line we may find 
a sense of mutual agreement on some of the issues raised.
    As you had mentioned earlier, 2014 is the target date for 
holding elections. The Constitution was abrogated. As I said 
earlier, Fiji has had to live with three Constitutions in a 
matter of 20 years; four military takeovers and one civilian 
takeover all within 20 years.
    So this is where I offered my sense of concern that 
sometimes our friends and allies in the Pacific seem to be 
making demands that there should be immediate elections and 
thinking that this is going to solve Fiji's problem, yet only 
to expect that maybe down the road we will have another 
military coup. And I think more than anything in my personal 
consultations with Prime Minister Bainimarama, that is where he 
is any way, at all cost to prevent another military coup from 
taking place in Fiji.
    So, I really think that this is something that I hope 
Assistant Secretary Campbell will give his attention. I 
definitely will bring this issue to his attention sometime 
tomorrow when I meet with him, and I sincerely hope that we 
will not lose interest in doing all we can in assisting the 
leaders of Fiji and their people.
    You had indicated earlier also about the alliance. 
Absolutely I cannot think the situation in our close alliance 
with Australia. When New Zealand announced a nuclear free zone 
policy where they will deny any U.S. ships or aircraft from 
coming to New Zealand since we have the policy, the standing 
policy they cannot deny or admit the presence of nuclear 
weapons in our aircraft and in our ships, I think this policy 
by New Zealand still stands. And this has also bothered a lot 
of Members of Congress to this day, even though this took place 
years and years ago. In a sense, it is like saying we are doing 
all the dirty work in the Pacific not only in our own national 
defense, but also the defense of our allies. And it was kind of 
a very dark page in our history during President Reagan's 
administration whereby we immediately cut off any further 
intelligence or military information with the Government of New 
Zealand because of that.
    Now, I do not know where the administration stands on this. 
Are we still going to continue looking at New Zealand with that 
one little problem, because we are denied our ships and 
aircraft to moor into their harbors and their airports due to 
never admitting the presence of nuclear weapons? I think that 
is still a serious problem among my colleagues here in the 
Congress as far as that policy is concerned.
    On China and checkbook diplomacy, I just want to say for 
the record that there was concern expressed by one of our State 
Department officials about 2 years ago about checkbook 
diplomacy currently conducted or has been conducted by China 
and Taiwan over the favors of these island countries. I had to 
interrupt the gentleman by saying, ``Wait a minute, we just 
gave $8 billion to Iraq in cash that we are having a hard time 
accounting for.''
    So I did suggest to the gentleman while it may be checkbook 
diplomacy that China and Taiwan are doing, but we are 
conducting cash diplomacy that we have a hard time finding out 
what happened to the money that we gave during the Iraq War.
    So I think we have to be a little careful when we start 
putting labels and saying that we are making checkbook 
diplomacy by these other countries, and yet our own Government 
is doing something even more glaring in a way that I say, well, 
is there a difference? I think there is a difference.
    Our close association and alliance with Japan, it is true. 
I am very, very happy that my good friend, President Ma, has 
established a much better working relationship with the 
People's Republic of China. He conducted his campaign on that 
platform, and for which the voters of Taiwan turned out 
overwhelmingly saying yes, establish peaceful, cordial 
relations with the People's Republic of China. And I think this 
is part of our own fundamental foreign policy. Whatever is 
between China and Taiwan, it should be resolved in a peaceful 
manner and not go through another experience of having to send 
two carrier battle groups to the Taiwan Straits as happened 
during the Clinton administration. I don't think my colleagues 
here would ever want to go through that experience again where 
we came close to a nuclear war with China over something we 
ought to be able to prevent.
    I am sorry. I did not mean to rattle on. I just wanted to 
share with you some of these issues that come before the 
subcommittee affecting our region.
    I do appreciate very much your comments and your statement 
and your commitment that we can always do a better job, if I 
can put it in those terms, as I am sure that our friends and 
our supporters in the Pacific region want very much to continue 
our close working relationship with them now and in the future. 
So I will give you one more opportunity if you would like to 
have another chance to take a shot at that.
    Ms. Frelick. I just want to thank you very much for holding 
this hearing today. I have been working with Ambassador Moses 
and some of the other permanent representatives in New York who 
are also bilateral Ambassadors to the United States. It has 
been a real pleasure to work with them. I look forward to going 
to the Pacific Island Forum, post-forum dialogue meetings next 
week in Cairns, and I think the more we can work together with 
not only the regional partners but the other donor countries in 
the region who have an interest in the Pacific the better we 
can do to try to address some of the very real issues that we 
have to deal with in the Pacific. These are wonderful 
countries, rich cultures, enormous resources, and we do care, 
and we want to do everything we can to have the U.S. presence 
felt and to have that be a positive presence.
    Thank you very much, Mr. Chairman.
    Mr. Faleomavaega. Ms. Frelick, I look forward to working 
with you and Secretary Campbell and members of the bureau. I 
think we are going to have an exciting time not only with the 
Pacific, but also with the countries of the Asian continent. 
Again, I really want to thank you for taking the time to come 
and be with us this afternoon.
    The hearing is hereby closed.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Minutes deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
<greek-l>Moses--in appendix (briefing statement) deg.
                               __________

 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
<greek-l>Corrected Frelick statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
